<html>
<title> - PROMOTING AMERICAN LEADERSHIP IN REDUCING AIR EMISSIONS THROUGH INNOVATION</title>
<body><pre>[Senate Hearing 115-131]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-131
 
    PROMOTING AMERICAN LEADERSHIP IN REDUCING AIR EMISSIONS THROUGH 
                               INNOVATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

  
  
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-078 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 15, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7

                               WITNESSES

Coddington, Kipp, Director, Carbon Management Institute, School 
  of Energy Resources, University of Wyoming.....................    11
    Prepared statement...........................................    13
    Responses to additional questions from Senator Barrasso......    22
Eisenberg, Ross, Vice President, National Association of 
  Manufacturers..................................................    27
    Prepared statement...........................................    30
    Responses to additional questions from:
        Senator Barrasso.........................................    60
        Senator Whitehouse.......................................    63
Lipman, Zoe, Director, BlueGreen Alliance........................    89
    Prepared statement...........................................    91
    Responses to additional questions from Senator Whitehouse....    98

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso and Carper from the American Coatings 
  Association, December 6, 2017..................................   137
Streamlining Permitting and Reducing Regulatory Burdens for 
  Domestic Manufacturing, U.S. Department of Commerce, October 6, 
  2017...........................................................   143
Final Report on Review of Agency Actions that Potentially Burden 
  the Safe, Efficient Development of Domestic Energy Resources 
  Under Executive Order 13783, U.S. Environmental Protection 
  Agency, October 25, 2017.......................................   198


    PROMOTING AMERICAN LEADERSHIP IN REDUCING AIR EMISSIONS THROUGH 
                               INNOVATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Fischer, Ernst, Whitehouse, Markey, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are here to discuss America's continued leadership 
in reducing air emissions.
    The United States has always been a leader in reducing air 
pollution by supporting and allowing the private sector to find 
innovative ways to reduce emissions. In fact, since 2005 the 
United States has reduced its combustion related carbon dioxide 
emissions more than any nation in the world. The development of 
innovative drilling methods has allowed domestic oil and gas 
producers to economically access natural gas, a low emitting 
fuel. Development of new technologies has consistently reduced 
our emissions, grown our energy, and improved how we use our 
resources.
    Between 1970 and 2015 GDP grew by 246 percent, while 
emissions of particulate matter, ozone, lead, carbon monoxide, 
nitrogen dioxide, and sulfur dioxide dropped by an average of 
70 percent.
    New technologies have improved how we use energy to reduce 
emissions.
    Today I am excited to hear about research at the University 
of Wyoming on similarly promising technologies that will allow 
us to both continue reducing our emissions and use our natural 
resources.
    The University of Wyoming School of Energy Resources was 
established by our State legislature in 2006, and it serves as 
a bridge between academia and industry. The school conducts 
applied research to develop innovative solutions to solve 
critical energy and environmental challenges faced by our 
nation and the world. These technologies include carbon 
capture, utilization, and sequestration, which has already 
received bipartisan support from my colleagues on this 
Committee.
    In addition to carbon capture, utilization, and 
sequestration, the University of Wyoming is exploring research 
related to advanced coal combustion, rare earth elements from 
coal and coal by-products, carbon engineering, and measurements 
of methane and volatile organic compounds emissions from oil 
and gas operations.
    Significant innovation is also occurring in the 
manufacturing sector. American manufacturers are the most 
productive in the world due to their dedication to always 
improving efficiency. At the same time, American 
manufacturers--in their entirety--have a strong track record of 
reducing their environmental impact.
    According to the National Association of Manufacturers, who 
is represented here today, greenhouse gas emissions from the 
manufacturing sector has decreased by 10 percent over the past 
decade, while increasing their value to the economy by 19 
percent.
    During the last Administration, America moved away from an 
innovative approach and instead pursued a regulatory approach, 
which punished our businesses instead of supporting and 
collaborating with them. The last Administration's misguided 
policies included signing the U.S. up for the Paris Agreement, 
a deal that I thought was a bad deal; it would have stifled 
American growth.
    I would like to introduce into the record the article 
published on the front page of yesterday's Washington Times 
entitled Emissions Report Casts Doubt on Paris Accord. The sub-
headline is China Still Polluting as U.S. Cleans Air. China 
Still Polluting as U.S. Cleans Air.
    Without objection, this will be admitted into the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. The article explains that U.S. greenhouse 
gas emissions are projected to decline this year. Meanwhile, 
greenhouse gas emissions in China and India--signatories to the 
Paris Agreement--are projected to increase.
    Today we will also hear about how other policies are 
hindering the private sector's ability to innovate to the point 
where industry is abandoning investments in technologies to 
make environmental improvements. For example, New Source Review 
requirements under the Clean Air Act are discouraging 
businesses from retrofitting their existing facilities with 
equipment that would reduce emissions, as well as from making 
operational changes that would be more efficient.
    President Trump has demonstrated a commitment to reducing 
these barriers to American businesses through his Executive 
Order promoting American energy independence and a Presidential 
moratorium on reducing the regulatory barriers that domestic 
manufacturers face.
    Today, I look forward to examining how we can provide 
American businesses the space to do what they do best, solve 
problems through innovative solutions.
    I now turn to Ranking Member Carper, my friend and 
colleague on this Committee.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    To our witnesses, welcome. I told the Chairman this morning 
I was excited about today's hearing. This is one of those days 
and one of those issues around which I thought there would be a 
whole lot of consensus and agreement, and I am tempted to just 
go point by point to rebut half the things that he just said, 
but I don't want to rain on the parade. This is going to be a 
great hearing, and we are delighted that you are here, and 
thrilled with the idea of putting a spotlight on the idea that 
we can have cleaner air, cleaner environment, cleaner water, 
and at the same time create jobs and have economic growth. They 
are not incompatible. In fact, they are most interdependent. So 
we will leave it at that. But we are grateful that you are all 
here.
    It was Abraham Lincoln who famously said that the role of 
government is to do for the people what they cannot do for 
themselves. The role of government is to do for the people what 
they cannot do for themselves. And I think one of the most 
important jobs that the government has is to help create a 
nurturing environment for job creation and job preservation. 
People like us--Presidents, Governors, mayors--we don't create 
jobs. What we help to do, with the help of a lot of other folks 
and a lot of key stakeholders, is we help create a nurturing 
environment for job creation, job preservation. We also have an 
obligation in the Government to protect our health, the health 
of our public, to ensure that all Americans can pursue life, 
liberty, and the pursuit of happiness. Luckily, the two are not 
mutually exclusive. In fact, history shows that cleaner air is 
also good for business.
    Today, our country is undergoing a clean energy revolution, 
and that did not happen by accident. Over the past 8 years, 
starting with the Recovery Act, the Federal Government has 
provided economic incentives, environmental targets in the 
supported market to develop investment in the clean energy of 
the future. This carrot and stick approach resulted in more 
than $507 billion of investment in the clean energy sector over 
the last decade and in our country's becoming a leader in 
exporting clean air and clean energy technologies. Thanks to 
these investments, consumers are paying less for energy, jobs 
are being created here at home to keep up with the demand for 
the products that these technologies enable. In 2016 alone, 1 
out of every 50 new jobs added in the United States was created 
by the solar energy industry.
    Today, we are going to hear from one of our witnesses about 
a particular manufacturing sector that has reaped the benefits 
of the past actions of our Federal Government, the automobile 
industry. I would like to remind my colleagues how this sector 
has changed over the past decade. It is a story near and dear 
to my own heart, and I think a perfect example of how American 
innovation and economic opportunities can be driven by Federal 
investments and regulations, common sense regulations.
    Despite decades of Federal Government funding for 
advancements in automobile fuel efficiency technology, it 
wasn't until after Congress increased fuel economy standards in 
2007 that consumers really started to see the benefits. The 
2007 compromise crafted by our colleagues, including former 
Senators Ted Stevens, Dianne Feinstein, Ed Markey, who is in 
and out of here today, and myself increased the fuel efficiency 
standards for cars and trucks and vans for the first time in 32 
years. The 2007 light-duty vehicle efficiency targets were 
replaced by tighter efficiency targets and greenhouse gas 
emission limits in 2010, and again in 2012, with the support of 
major automobile, labor, environmental, health groups, and 
consumer groups. The results have been remarkable. You don't 
have to believe me; the numbers prove it.
    Taken together, these car and light-duty truck standards 
are projected to almost double the fuel economy of cars and 
light duty trucks to 54.5 miles per gallon by 2025. These 
standards are reducing the amount of oil we import by 2 million 
barrels per day and will save American drivers nearly $1.7 
trillion in gasoline costs that they will no longer have to 
buy.
    In even better news, these regulations have not been the 
job killer that many would have us believe. In fact, they have 
been quite the opposite. Automakers found that making more 
energy efficient vehicles allowed American companies to better 
compete not just here at home, but overseas as well. Early 
implementation of these standards occurred during 7 years of 
unprecedented growth in the auto industry and record sales last 
year, in 2016. The industry has also added roughly 700,000 
direct auto sector jobs since 2009.
    It is clear that we have made great gains in reducing 
emissions in our transportation and energy sectors over the 
past 8 years, while still growing our economy. We have been 
doing something right. And although our air is cleaner today 
and our economy is strong, we still need to do more to protect 
public health and ensure that America remains a leader in the 
global economy.
    Having said that, I fear that this Administration is taking 
us in the wrong direction in this arena walking away from the 
Paris Accord agreement, leaving the U.S. as the only country in 
the entire world that is not part of this historic agreement. 
And walking away from other climate and air protections is, I 
think, beyond irresponsible. And saying that you have to do so 
for the good of the American economy is just blatantly false. 
In fact, scrapping forward looking standards will only provide 
more uncertainty for businesses and threaten to stifle American 
innovation.
    For me it is clear. This is not an either/or situation. In 
order for the United States to continue to be the world's 
leader in this new clean energy revolution, and we need to be, 
we need both Federal investment in technology and common sense 
regulations.
    So, thanks, Mr. Chairman, for holding this important 
hearing.
    We are delighted that our witnesses are here. We look 
forward to a robust conversation with you all. Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I would like to thank the Chairman for having this hearing 
today. I believe that improving the understanding and 
celebrating the role that technological innovation plays in 
helping the country meet our clean air and climate challenges 
are very important, and I hope we can have more hearings like 
this. I also thank our witnesses for being here today.
    Abraham Lincoln famously said that the role of government 
is to do for the people what they cannot do for themselves.
    One of those tasks, I believe, is for government to help 
create a nurturing environment for job creation and job 
preservation. Our government also has an obligation to help 
protect the health of the public to ensure that all Americans 
can pursue life, liberty, and happiness.
    Luckily, the two are not mutually exclusive. In fact, 
history shows that cleaner air is good for business.
    Today our country is undergoing a clean energy revolution. 
That didn't happen by accident. Over the past 8 years, starting 
with the Recovery Act, the Federal Government has provided 
economic incentives, environmental targets, and has supported 
market development to encourage investments in the clean energy 
of the future.
    This carrot and stick approach resulted in more than $507 
billion of investment in the clean energy sector over the last 
decade and in our country's becoming a leader in exporting 
clean air and clean energy technologies.
    Thanks to our investments, consumers are paying less for 
energy, and jobs are being created here at home to keep up with 
the demand for the products that these technologies enable. In 
2016 alone 1 out of every 50 new jobs added in the United 
States was created by the solar energy industry.
    Today we will hear from one of our witnesses about a 
particular manufacturing sector that has reaped the benefits of 
the past actions of the Federal Government--the automobile 
industry. I'd like to remind my colleagues how this sector has 
changed over the past decade. It's a story near and dear to my 
heart and I think a perfect example of how American innovation 
and economic opportunities can be driven by Federal investments 
AND regulations.
    Despite decades of Federal Government funding for 
advancements in automobile fuel efficiency technology, it 
wasn't until after Congress increased fuel economy standards in 
2007 that consumers really started to see the benefits. The 
2007 compromise crafted by my colleagues--former Senator 
Stevens, Senator Feinstein, then-Congressman Markey--and I 
increased the fuel efficiency standards for cars, trucks, and 
vans for the first time in 32 years.
    The 2007 light-duty vehicle efficiency targets were 
replaced by tighter efficiency targets and greenhouse gas 
emissions limits in 2010 and again in 2012, with the support of 
the major automakers, labor, environmental, and health groups, 
and consumer groups.
    The results have been remarkable, but you don't have to 
believe me--the numbers prove it.
    Taken together, these car and light-duty truck standards 
are projected to almost double the fuel economy of cars and 
light-duty trucks to 54.5 miles per gallon by 2025. These 
standards are reducing the amount of oil we import by 2 million 
barrels per day and will save American drivers nearly $1.7 
trillion in gasoline they will no longer have to buy.
    In even better news, these regulations have not been the 
job killers that many would have you believe. In fact, they 
have been quite the opposite.
    Automakers found that making more fuel efficient vehicles 
allowed American companies to better compete here at home and 
abroad.
    Early implementation of these standards occurred during 7 
years of unprecedented growth in the auto industry and record 
sales in 2016. The industry has also added roughly 700,000 
direct auto sector jobs since 2009.
    It's clear we've made great gains in reducing emissions in 
our transportation and energy sectors over the past 8 years 
while still growing our economy. We've been doing something 
right. And although our air is cleaner today and our economy is 
strong, we still need to do more to protect public health and 
ensure that America remains a leader in the global economy.
    Having said that, I fear this Administration is taking us 
in the wrong direction in this arena.
    Walking away from the Paris Climate Agreement--leaving the 
U.S. the only country in the entire world not part of this 
historic deal--and walking away from other climate and clean 
air protections are beyond irresponsible. And saying that you 
have to do so for the good of the American economy is blatantly 
false. In fact, scrapping forward looking standards will only 
provide more uncertainty for businesses and threaten to stifle 
American innovation.
    For me, it is clear--this is not an either/or situation. In 
order for the United States to continue to be the world's 
leader in this new clean energy revolution, we need both 
Federal investments in technology AND common sense regulations.
    Thank you again to the Chairman for holding this important 
hearing. I look forward to hearing from our witnesses their 
ideas on how we can do that.

    Senator Barrasso. Well, thank you, Senator Carper.
    We will now hear from our witnesses, but before we turn to 
Kipp Coddington, let me first say a few words about him.
    Mr. Coddington has a distinguished career as a chemical 
engineer and as an attorney. He has more than two decades of 
experience in helping fossil and renewable energy companies 
address some of their most challenging energy and environmental 
issues. At the University of Wyoming, Mr. Coddington oversees 
the Carbon Management Institute, which is striving to become a 
world class center of technoeconomic and carbon management 
solutions by conducting applied research.
    In addition to his duties at the University of Wyoming, Mr. 
Coddington is the former chair of the International 
Organization for Standardizations Committee that is in the 
process of drafting the first international technical standard 
for storage of carbon dioxide during enhanced oil recovery 
operations.
    Before moving to my home State of Wyoming, Mr. Coddington 
practiced law here in Washington, DC, and I am pleased that he 
now calls the great State of Wyoming home.
    In addition to Mr. Coddington, we have Mr. Ross Eisenberg, 
who is Vice President of Energy and Resources Policy for the 
National Association of Manufacturers.
    And also joining is today is Zoe Lipman, who is the 
Director of Vehicles and Advanced Transportation Program, the 
BlueGreen Alliance.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record 
today, so please keep your statements to 5 minutes so that we 
may have time for questions. I look forward to your testimony.
    I would recommend, also, and remind you that your full 
written testimony will be made part of the official hearing 
today, so please keep your statements to 5 minutes.
    Mr. Coddington, please begin.

   STATEMENT OF KIPP CODDINGTON, DIRECTOR, CARBON MANAGEMENT 
  INSTITUTE, SCHOOL OF ENERGY RESOURCES, UNIVERSITY OF WYOMING

    Mr. Coddington. Mr. Chairman and Senators, thank you for 
the opportunity to appear before you today to discuss research 
at the University of Wyoming related to reducing air emissions 
through the development of new technologies and efficient 
practices in manufacturing and energy production and use. I am 
the Director of Energy Policy and Economics at the School of 
Energy Resources at UW and also direct the Carbon Management 
Institute, which is one of SER's Centers of Excellence.
    All the projects and research areas noted in my testimony 
are important so that the United States remains a leader in 
using its abundant energy resources with reduced impacts to air 
quality. These air issues also are important to Wyoming, which 
is one of the nation's leading energy jurisdictions. According 
to the U.S. Energy Information Administration data for 2015, 
first, Wyoming produced 42 percent of all coal mined in the 
United States; second, 32 States received coal from Wyoming 
mines, with 10 States, including Wyoming, obtaining more than 
90 percent of their domestic coal from Wyoming; third, Wyoming 
accounted for 6.2 percent of U.S. marketed natural gas 
production; and fourth, almost 88 percent of net electricity 
generation in Wyoming came from coal, and nearly 11 percent 
came from renewable energy resources, primarily wind.
    Sitting in the Rocky Mountain west, Wyoming energy 
resources face a variety of environmental challenges and 
opportunities, from the State of California's enduring air and 
climate regulatory programs to fuel choices by Wyoming 
customers of Wyoming energy.
    My written testimony provides a broad overview of UW's 
research, divided into the following topical areas: first, 
reducing atmospheric emissions of greenhouse gases and other 
constituents associated with the combustion of fossil fuels; 
second, utilizing carbon dioxide once it is combusted from the 
utilization of fossil fuels; and third, not creating emissions 
in the first instance, which would include, for example, taking 
coal directly to beneficial products instead of combusting it 
for electricity.
    My written remarks conclude with some brief observations 
about our policy work and ongoing engagements with regional 
stakeholders, such as Idaho National Lab.
    With respect to topic area No. 1, reducing emissions from 
the combustion of fossil fuels, UW is working on numerous 
technologies, such as flameless pressurized oxyfuel combustion, 
coal firing coal with biomass, and measurements of methane and 
volatile organic compound emissions from oil and gas 
operations.
    With respect to topic area two, utilizing carbon dioxide 
once it is produced from the combustion of fossil fuels, the 
State of Wyoming is an ideal jurisdiction to advance research 
and projects related to capturing and utilizing emissions of 
carbon dioxide. For example, led by the Wyoming Infrastructure 
Authority and with the support of many private and public 
sector entities in Wyoming, the Gillette based Integrated Test 
Center will soon serve as an operational test site for 
CO<INF>2</INF> capture technology developers and providers to 
evaluate carbon capture utilization and storage technologies 
using actual fuel gas from a coal fired power plant. The ITC is 
also hosting the coal track of the $20 million NRG COSIA Carbon 
XPRIZE, a global competition to develop breakthrough 
technologies that convert CO<INF>2</INF> emissions from fossil 
fuel combustion into products with the highest net value.
    It is also worth noting that Wyoming is one of only a 
handful of States with existing CO<INF>2</INF> pipeline 
infrastructure, with ongoing efforts to expand the same under 
the Wyoming Pipeline Corridor Initiative. Wyoming also has an 
existing CO<INF>2</INF> enhanced oil recovery industry and has 
enacted laws to encourage the environmentally responsible 
siting and operation of CCUS-related projects in the State.
    My written testimony provides more details about the 
abundant work we are doing in the area of CO<INF>2</INF> 
utilization.
    Third, the third research area I wanted to cover is 
advancing the utilization of coal in a non-combustion 
environment. UW is alone in developing and advancing novel and 
innovative technologies related to the extraction and 
production of valuable non-Btu products from coal. The primary 
focus of this research is to advance coal utilization as a 
feedstock to manufacture and generate valuable non-Btu coal 
related products such as carbon fiber and carbon rich 
chemicals, agricultural and building products. And some of 
these products, for example, graphite and carbon fiber, are 
predicted to be in short supply as the demand for lightweight 
materials, renewable energy, and the like grows in the years 
ahead.
    Our work on rare Earth elements is also expanding. UW 
researchers, in collaboration with colleagues on campus and 
throughout the region, are separately investigating the 
identification, characterization, and separation of REEs from 
coal, coal by-products, and produced waters. Expansion of 
domestic sources of REEs remains a high priority for 
policymakers.
    This concludes my verbal testimony. I commend the Committee 
for addressing the issue of the role that innovative 
technologies are playing in reducing air emissions. UW is doing 
its best to advance frontiers of these research areas for the 
benefit of a variety of stakeholders. The ongoing Federal role 
in supporting these research endeavors is imperative.
    I would be pleased to answer any questions that you may 
have. Thank you.
    [The prepared statement of Mr. Coddington follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Thank you very much for your testimony, 
Mr. Coddington. We will get to questions after we finish with 
the rest of the panel.
    Mr. Eisenberg, please proceed.

     STATEMENT OF ROSS EISENBERG, VICE PRESIDENT, NATIONAL 
                  ASSOCIATION OF MANUFACTURERS

    Mr. Eisenberg. Good morning, Mr. Chairman, Ranking Member 
Carper, members of the Committee. My name is Ross Eisenberg. I 
am pleased to provide testimony on the wonderful--the very good 
things that manufacturers are doing to improve emissions in 
this country and usher in a more sustainable environment.
    Through a wide range of traditional and innovative 
measures, manufacturers have sharply reduced their emissions 
and have helped usher in this new era. Since 1990 the national 
pollution concentrations have--it is really a remarkable thing. 
All the trendlines on pretty much every single major pollutant 
have gone straight down. Carbon monoxide concentrations are 
down 77 percent; lead, 99 percent; nitrogen dioxide, 54 
percent; ozone, 22 percent; coarse particulate matter, 39 
percent; fine particulate matter, 37 percent; and sulfur 
dioxide, 81 percent.
    As you said in your opening remarks, Mr. Chairman, we have 
reduced more greenhouse gases than any other nation on earth.
    When you narrow this analysis to the industrial sector, you 
get similarly impressive results. Today's manufacturing company 
would like to say it is not your father's or even your 
grandfather's manufacturer; it is a sleek, technology driven 
operation that looks nothing like industrial facilities of the 
past. And with that progress has come a much smaller 
environmental footprint. Industrial emissions of nitrogen 
oxide, which is a criteria pollutant and the main driver of 
ozone, they have dropped by 53 percent in the industrial sector 
since 1970. Industrial emissions of volatile organic compounds, 
VOCs, the other pollutant that makes up ozone, are down 47 
percent during that same timeframe. Carbon monoxide is down 70 
percent in our sector since 1970. Sulfur dioxide, 90 percent. 
Emissions of coarse particulate matter in the industrial sector 
are 83 percent down since 1970; fine particulate matter, 23 
percent since their peak in 1999. And on greenhouse gases, the 
industrial sector manufacturing actually emits less than we did 
in 1990. Just over the past decade, we have reduced our 
greenhouse gas emissions by 10 percent, while increasing our 
value of the economy by 19 percent in that same timeframe.
    So, across the board, manufacturers are truly walking the 
talk. My written statement provides a wealth of examples that 
were sent to me by our manufacturers from companies like Olin, 
Xerox, Cummins, Johnson Controls, Owens Corning, Illinois Tool 
Works, and many others.
    My testimony highlights Covestro, which committed to reduce 
its 2005 CO<INF>2</INF> levels by 40 percent by 2020. They have 
already beaten that, so they set another target of cutting that 
in half by 2025.
    The ASF's Huntsville, Alabama, facility implemented 
materials management and recycling activities that saved more 
than 1,500 metric tons of VOCs and 35,000 metric tons of 
CO<INF>2</INF>.
    Calgon Carbon, up in Pennsylvania, manufactures activated 
carbon products. They control mercury emissions from power 
plants, industrial boilers, and cement kilns.
    The steel manufacturer ArcelorMittal installed a $63 
million energy recovery system that captures their off-gas, 
their blast furnace gas, and uses it, instead of it being 
wasted, to produce steam to generate electricity, which reduces 
their annual CO<INF>2</INF> emissions by 340,000 tons.
    There are literally thousands more across the country doing 
groundbreaking work to make themselves more sustainable, and 
they have names you know, like Hershey, and Subaru, and Clorox, 
and Pfizer; and names you might not know, like Nalco, FuelTech, 
L.S. Starrett. These companies are developing and installing 
technologies that reduce the emissions from reducing energy. 
They are making changes to their processes, and they are 
reducing their emissions right there on the shop floor. They 
are developing these technologies with an eye toward exporting 
them around the world and helping others.
    Now, there do remain barriers to accomplishing even more, 
but one I would like to focus on, as I do in my written 
statement, is New Source Review, a Federal air permitting 
program that applies to new facilities or major modifications. 
In practice, NSR has become a barrier to efficiency upgrades 
and the installation of modern pollution control equipment. The 
ups and downs of NSR can result in years-long delays, high 
modeling costs, citizen suits, and enforcement actions. And 
that is assuming you actually get the permit. Many simply just 
won't bother.
    For instance, if a manufacturer installs selective 
catalytic reduction technology to reduce NO<INF>x</INF> 
emissions, the components can trigger NSR for that facility for 
all emissions, requiring a full comprehensive review. That is a 
lot of risk to shoulder for the installation of, really, just 
one component.
    One manufacturer reports that customers have asked it to 
de-optimize performance in a suite of efficiency upgrades in 
order to avoid triggering NSR. And NSR notice of violation have 
been issued for environmentally beneficial projects like 
economizer replacement, steam turbine upgrades, feedwater 
heater replacements, and similar activities.
    Even worse, NSR presents a very big impediment to the 
installation of the more efficient technologies that are going 
to be used to control climate change. In comments to the draft 
Clean Power Plan, the Utility Air Regulatory Group submitted an 
attachment that had 400 individual projects that would have 
increased the efficiency of power plants, only to be targeted 
by the EPA or citizen suits with NSR violations. That can't 
possibly be what Congress intended when it set up this program.
    So, the NAM urges this Committee to work closely with EPA 
to fix NSR so that it functions properly and doesn't stand in 
the way of efficiency.
    Manufacturers have established a strong environmental 
protection record, and we strive to reduce the environmental 
footprint of our operations and become more sustainable. The 
results are already very impressive, and they get better with 
each passing year. However, as my testimony shows, barriers do 
still exist. The NAM hopes it can work with this Committee to 
reduce these barriers and help solve the environmental 
challenges of current and future generations.
    Thank you.
    [The prepared statement of Mr. Eisenberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Barrasso. Thank you very much, Mr. Eisenberg.
    Ms. Lipman, thank you. Welcome to the Committee.

                   STATEMENT OF ZOE LIPMAN, 
                  DIRECTOR, BLUEGREEN ALLIANCE

    Ms. Lipman. Thank you, Mr. Chairman and members of the 
Committee. Thank you for the opportunity to testify today.
    The BlueGreen Alliance unites America's largest labor 
unions and its most influential environmental organizations to 
solve today's environmental challenges in ways that create and 
maintain quality jobs and build a stronger, fairer economy. In 
our work, we see that the innovation being carried out by 
workers and companies across America to meet our pollution and 
climate challenges is not just important to the environment, 
but is a critical driver of American competitiveness and job 
growth.
    Worldwide, the race is on to deliver better energy, 
transportation, and infrastructure that is efficient and lower 
emitting. The places that can meet these needs first, best, and 
can continue to do so into the future will have a powerful leg 
up in the future economy.
    We share the enthusiasm of others on this panel around the 
innovation happening today in America both to build the 
technology that cuts air emissions and to improve the 
manufacturing processes to make them more efficient and lower 
polluting.
    I want to talk today about what is needed to sustain this 
progress.
    We support the nation's invaluable network of national labs 
and the critical energy and transportation technology programs 
at the Department of Energy that build on this expertise, and 
we underscore the critical importance of the agency's 
commercialization and manufacturing programs that help ensure 
we turn innovative technology into equally innovative, globally 
competitive manufacturing and jobs in America.
    Thanks to efforts to improve the efficiency, emissions, and 
energy competitiveness of America's most energy intensive 
industry, some of which have been mentioned already today, 
America's steel and aluminum manufacturers, for example, are 
some of the cleanest, lowest emitting, and most productive in 
the world, while upholding good wages and high labor standards 
at the same time. Our tax, trade, and international agreements 
should help us support and defend the industrial leadership 
being shown by companies here, not undermine them.
    But equally important to sustaining the innovation we are 
seeing today in cutting air emissions are sound, long term, 
globally leading standards. A sound regulatory framework is 
critical to provide companies with the certainty necessary to 
make the large long term investments in innovation at scale.
    Regulations are working not just to cut air emissions, but 
to dramatically spur innovation, investment, and job growth. As 
proof, look no further than the car or truck in your driveway.
    Over the past decade, the auto sector has been transformed, 
as has already been mentioned; not just the car makers 
themselves, but the huge network of suppliers and manufacturing 
that is connected to them. Under the current fuel economy and 
vehicle greenhouse gas standards, not only has the industry 
achieved unprecedented cuts in emissions, but the industry has 
returned to profitability and growth, and has built great cars, 
SUVs, and pickup trucks that consumers have snapped up at 
record levels. Fuel efficiency gains are saving drivers of all 
kinds of vehicles billions of dollars a year, enhancing 
America's energy security, and underpinning a gradual recovery 
of U.S. manufacturing as a whole.
    In June we released a report of the Natural Resources 
Defense Council where we found over 1,200 factories and 
engineering facilities in 48 States and 335 congressional 
districts, and 288,000 workers building the specific 
technologies that go into improving fuel economy and cutting 
emissions in today's cars and trucks. This is two and a half 
times as many factories and engineering facilities, and almost 
twice as many workers as we found in a similar study in 2011. 
But even that impressive growth doesn't fully capture the 
recovery of a dynamic, innovative, far more competitive 
automotive manufacturing supply chain and industry.
    Take, for example, the Ford F-150. This is a very popular 
pickup truck, but it still only makes up a small percentage of 
the vehicles on the road. Nonetheless, the fuel saved by just 
the new F-150s built since the fuel economy standards began 
implementation in 2012 cut carbon emissions equivalent to the 
total electricity use of the city of Boston.
    Achieving those gains required innovation not just in 
vehicle design and assembly, robotics, and training by Ford in 
Missouri and Michigan, but aluminum companies in Tennessee and 
Iowa, which developed and built new types of aluminum, aluminum 
treatment, and aluminum joining. Iowa and Indiana steel 
facilities developed and manufactured new lightweight, high 
strength steel for the vehicle frame. Ford holds several 
hundred patents for parts of the truck's efficient EcoBoost 
engine and has made multiple rounds of retooling investment in 
the plants that build it. The company that makes the F-150's 
efficient electric power steering faced bankruptcy in 2009, but 
today is the biggest employer in Saginaw County, Michigan.
    Just these few examples represent billions in automaker and 
supplier investment, and likely hundreds of millions above and 
beyond business as usual. They represent real factory 
investments and jobs coming back to communities all across 
America.
    We know what the tools are that have spurred this 
innovation; not just in transportation, but also in the energy 
and industrial sectors. Whether it is support for R&D and 
technology development, for commercialization, manufacturing 
and work force investment, or the clear regulatory framework 
necessary for companies to make these important investments in 
innovation. And we need to use them all to ensure that we 
invent the next generation of technology, build it here, and 
build good jobs in America doing so.
    Thank you very much, and I look forward to answering any 
questions you have.
    [The prepared statement of Ms. Lipman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Well, thank you very much to all three of 
you for this very interesting testimony.
    We will start with questioning. I will start with a 
question for Mr. Coddington.
    It seems that many of the innovative technologies that are 
being applied by the private sector benefit from basic research 
and development conducted by the Federal Government and by our 
nation's universities. This research has been especially 
beneficial when there is collaboration between industry, 
universities, government entities at both the State and the 
Federal level.
    So, can you elaborate a little bit on some of the 
partnerships between the University of Wyoming and businesses 
in Wyoming to support research, and how does this collaboration 
lead to more targeted and applied research?
    Mr. Coddington. Mr. Chairman, thank you for your question. 
Yes, as you mentioned in your introductory remarks, the School 
of Energy Resources was created, in part, a decade ago to help 
build those bridges, and it is one of the benefits of being in 
the State of Wyoming, where you can cross the aisle and work 
collaboratively with partners and industry.
    Under most of the Federal grants that we are implementing, 
there is, in fact, a mandated cost share requirement that 
requires us to reach out for State dollars or private sector 
dollars on many of these projects.
    With respect to our carbon capture and storage projects, we 
are privileged to be teamed with two major utilities in the 
State of Wyoming, other oil and gas partners, drilling 
companies and the like; and indeed, I cannot think of a major 
project we have underway that does not have the participation 
and some role--typically major--of a private sector partner.
    We do very much have an economic focus. All research and 
development is good, but at the end of the day it has to be 
economic and work toward the public good, so you need that 
private sector input, and we are very sensitive to that.
    So, to conclude, UW is very proud of our collaborations 
with various entities in the State, including the private 
sector, and I don't think we could do that work without them. 
Thank you.
    Senator Barrasso. And Mr. Eisenberg, at a hearing held in 
September, David Greeson was here from the NRG Energy, and he 
explained the burdens that New Source Review posed to the Petra 
Nova carbon capture project. He spoke how New Source Review is 
a barrier because of the uncertainty the current regulatory 
framework presents to business.
    In your testimony today, you explained that New Source 
Review discourages emissions reduction projects in the 
manufacturing sector, as well as in the power generation 
sector. So, could you possibly elaborate a little bit further 
with maybe some specific examples?
    Mr. Eisenberg. Absolutely. Thank you. A lot of the same 
problems that the utility sector experiences on New Source 
Review pervade the same sort of upgrades that we are trying to 
do in the manufacturing sector. Most manufacturers have an 
industrial boiler in place, either steam turbine or a gas 
turbine, to produce energy and heat. The manufacturers of the 
control technologies for those believe that there is a 
technology out there that are a series of upgrades that could 
improve the efficiency by 2 and a half percent that would 
result in about 6 and a half percent reductions per megawatt 
hour of greenhouse gases. The majority of their customers 
aren't doing it because this would trigger New Source Review, 
and it would sort of start the saga.
    Another good example is if a pulp mill is taking down two 
older--let's say coal fired boilers, and then to replace them 
with one gas fired boiler, when you are considering that, the 
only thing you consider going into NSR is that you are building 
a new gas fired boiler, not that you are having a net reduction 
of, let's say, 200 tons per year of NO<INF>x</INF>, or whatever 
the pollutant that you are trying to control is. So, that 
factors very heavily into the decision as to whether or not you 
are going to take on this project.
    There is a lot of opportunity here. Obviously, there are 
plenty of manufacturers making control technologies across the 
board for these pollutants. And I am not suggesting that NSR 
shouldn't happen; it is just let's figure out a way to actually 
let it enable some of these efficiency upgrades. That is really 
all we are looking for.
    Senator Barrasso. Mr. Coddington, the University of Wyoming 
supports this unique public-private partnership known as the 
Integrated Test Center that we talked about. It is going to be 
one of the first research facilities in the world located at an 
operating coal fired power plant. The ITC researchers are going 
to study how to use the excess carbon dioxide that is captured 
at the plant and turn it into a valuable product.
    Can you talk a little bit about how this research is going 
to support further reductions in carbon emissions?
    Mr. Coddington. Yes, Mr. Chairman. So, as you indicated, 
the Integrated Test Center should start operations in January 
2018. It is the only center of its type in the United States. 
It will upscale increase from the good work that is currently 
being done at the National Carbon Capture Center. The 
researchers there, including the first tenants, which are the 
NRG COSIA Carbon XPRIZE, will be looking at ways to more 
efficiently both capture carbon dioxide emissions from a coal 
fired power plant, that being Dry Fork Station, and they will 
also be conducting research on how to make beneficial use of 
that carbon dioxide. Indeed, making maximum use and economic 
use of the CO<INF>2</INF> is one of the major purposes of the 
Carbon XPRIZE. So, the ITC, by design and definition, is 
fulfilling the mission of pursuing economic technologies to 
reduce carbon dioxide emissions from coal fired power.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks.
    Thanks again, everyone, for joining us and for your 
testimony today.
    As my colleagues have heard me mention, I am a native of 
West Virginia. My dad, coming out of high school, worked at a 
coal mine in Beckley for a while, before going off to World War 
II, and I have a strong feeling and affection for people in 
West Virginia, and in Wyoming, including a cabin in Wyoming, 
Delaware. It caused a big deal in coal, a big deal in Wyoming 
as certainly my native State. I have supported clean coal 
technology for longer than probably a bunch of the people in 
this room have been alive. Robert Byrd was one of my early 
mentors while I was in the House and later as a Senator here.
    Having said that, I was pleased to work with Ted Stevens, 
Dianne Feinstein, and others on regulations, CAFE regulations, 
actually, on legislation raising for the first time in some 30 
years fuel emission standards, mileage standards, fuel 
efficiency standards back in 2007; and we have seen, as is 
always mentioned about the kind of job growth that has taken 
place as a result.
    I think one of the most important things we do, as I said 
earlier, in Government is create a nurturing environment for 
job creation, job preservation. With respect to fuel savings, 
efficiency savings, reductions in emissions that have flowed 
from the changes since the 2007 law was signed by George W. 
Bush has been remarkable.
    The role of Government in this is not just to pass laws or 
regulations that sort of put the meat on the bones of the laws, 
but we also have the opportunity to make investments in R&D, 
smart investments that help lead to technologies that can be 
commercialized and lead to these efficiencies. A second thing 
that we can do is have tax policy that incents people to buy 
energy efficient vehicles, and we have that today. The third 
way that we do it is we use the Government's purchasing power 
to help create a market for these new technologies and new 
products, and we need to do all of that. Plus, we have invested 
a whole heck of a lot of money in clean coal technology, as I 
think most of us know.
    I am going to ask Zoe a question. One of the most important 
things we can do in Government is, as I said, create that 
nurturing environment. We tried to do that in Section 143 of 
the FAST Act a couple of years ago, which requires the 
Department of Transportation to designate national electric 
vehicle charging hydrogen propane and natural gas fueling 
corridors. These proposed corridors are nominated for 
designation by State Department for Transportation and local 
entities.
    I would just ask Ms. Lipman are you familiar with that 
provision in the FAST Act that requires and supports new 
transportation innovation? If so, how would you recommend that 
we build on it in other policies to incentivize more private 
sector innovation for alternative fuels and alternative fuel 
infrastructure?
    Ms. Lipman. Thank you. I am not familiar with the details 
of that policy, but definitely with the broader----
    Senator Carper. Go ahead.
    Ms. Lipman [continuing]. Efforts to promote not only 
electric and other alternative vehicle charging and fueling 
infrastructure, but also the vehicles themselves. And I would 
underscore that we are really in a race for the next generation 
of vehicle technology worldwide. A couple decades ago people 
had questions about whether electric vehicles were real and 
whether the U.S. had what it takes to build the technologies, 
especially the electric powertrain, the batteries, et cetera.
    Today we have manufacturers of both the components that go 
into electric vehicles and into the infrastructure across the 
nation; there are probably two dozen in Indiana alone, as well 
as all across the south, in California, in Texas. And there is 
rapidly growing interest not only, and I think this is 
something that crosses over into the electric sector as well, 
but in using the technology that goes into charging to also 
help us upgrade and make more resilient our electric grid.
    So, there is a tremendous opportunity for innovation which 
is being deployed already. Meanwhile, nations across the world, 
whether in Europe or in Asia, in China, in particular, are 
pulling out all the stops to see that they too can lead in this 
rapidly growing technological field.
    Senator Carper. Thanks. Hold it right there. Hold it right 
there. Hold it right there. I am running out of time.
    My wife and I went to an Aspen Institute seminar back in 
August in Norway. Norway has the fifth or sixth largest gas and 
oil reserves in the world. They also have 40 percent of their 
vehicles now are powered by electricity. Forty percent are 
powered by electricity.
    A year earlier I went to an Aspen Institute seminar in 
China and had the opportunity there to see the incredible 
investments that China is making in electric vehicles; large 
buses, cars, trucks, and the infrastructure to support them.
    Ford and GM just announced last month that they are going 
to be launching 23 new models of electric vehicles in this 
country, I think by 2025. This is coming. This is coming, and 
they are going to need to be powered somehow. They can be 
powered by utility powers creating electricity. It could be 
coal, it could be natural gas, it could be clean coal, I hope. 
It could be renewables as well. There is a way to do this and 
do this in a smart way.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have to say one thing in response. They always end up 
talking here about the great Paris Agreement. If there was ever 
a joke, that is it. You know, they have been trying for 21 
years to get 192 countries, 196 countries to agree on something 
that they all agree on; and when I have talked to those 
individuals, and I have been at some of these meetings, they 
are there lining up to see who can get the most money out of 
the system.
    Now, this great Paris Agreement that took place, what did 
we commit to in our country? President Obama said we will 
reduce CO<INF>2</INF> emissions by 27 percent by 2025. Now, I 
was Chairman of the Committee at that time. We called his own 
EPA and said we want you to come in and testify and tell us how 
you are going to cut these emissions. They refused to do it. I 
have never seen a time when someone in the jurisdiction of a 
Committee refused to testify. And the reason was that they 
couldn't do it.
    What did other people agree to? India. India said, yes, we 
will agree that if we get somewhere between $1 trillion and 
$2.5 trillion, we will start doing something about emissions.
    China. China, right now, every 10 days comes out with a new 
coal fired energy plant, generating plant, and they said we 
will continue to do that until 2025, then we will consider 
doing something of a reduction. When 2025 comes, no one is 
going to remember.
    But I would just like to remind people that they have tried 
for 21 years, and this is the best they can come up with.
    Now, Mr. Eisenberg, I want to mention something. Some good 
things are happening right now. I mean, look at the economy. 
There is an article in this morning's Wall Street Journal that 
I want to make, Mr. Chairman, a matter of the record here. I 
will just quote one or two sentences here. ``U.S. manufacturers 
have added 156,000 workers since Donald Trump was elected 
President in November 2016, according to the government data. 
That is a clear turnaround from the loss of 16,000 jobs during 
the final year of Barack Obama's administration.''
    I ask unanimous consent this be made a part of the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Senator Inhofe. Also, the other thing, I have personal 
experience in this because I was a builder and developer for 
20, 25 years, and I was doing things, making the sacrifices, 
building, expanding the tax base, making money, losing money, 
and all that. But the chief opponent I had, or opposition I had 
all that time was the Federal Government. So, I want to make 
this a part of the record, too.
    One of the great things this President has done is all the 
CRAs, Congressional Review Acts, and I am proud that mine was 
the first one that had a signing ceremony, and that was the one 
where Obama had come out with a rule that said if you are 
competing here in oil and gas domestically, in the United 
States, with China or other countries, you have to give them 
all the information out of your playbook, putting us in a 
competitive disadvantage.
    So, I introduced a CRA. It passed overwhelmingly, and the 
President signed it.
    And I want to make this a part of the record also, because 
I have some 70 rules and regulations that have caused our 
energy economy to start turning around.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Inhofe. So, I just want to observe, Mr. Eisenberg, 
all the things that are happening right now. You know, the 
second and third quarter of this year, we have increased the 
economy by 3 percent. In the first quarter, of course, that was 
the previous Administration, it was 1.6 percent. And that is a 
huge thing. Right now we are talking about what can we do to 
increase the revenues that come into the United States, and one 
of the best ways is to increase our GDP, and that is exactly 
what we are doing.
    So I would say, Mr. Eisenberg, there is not time for a 
question from you, but I would only say that good news, good 
things are happening right now, and I think your testimony has 
made that real clear.
    I want to say one thing, however, Mr. Coddington, because 
Harold Hamm--do you know who Harold Hamm is?
    Mr. Coddington. Yes, I do.
    Senator Inhofe. All right. Harold Hamm, for those who don't 
know, is the Executive Director of the International Energy 
Agency, and he said yesterday, ``The United States will become 
the undisputed global oil and gas leader for decades to come. 
The growth and production is unprecedented, exceeding all 
historic records.'' Harold Hamm, by the way, is from Oklahoma. 
He has the Continental Resources, and he is even, right now, 
exporting oil to China, of all things.
    So good things are happening, and I have no questions. 
Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you.
    First, Mr. Chairman, let me say I hope that the hearing 
becomes an encouragement for the bill that you and I have 
worked on, the Carbon Capture, Utilization, and Storage Act. I 
think that there is significant technological opportunity to be 
achieved in that space, but it is rather hard to achieve 
technological opportunity in a space in which there is no value 
proposition to the investor. And as long as there is no price 
on carbon, the corollary of that is that there is no benefit to 
low carbon, so it gets really hard to find a way to achieve 
revenues for offering a carbon capture technology. There have 
been some grants that have allowed experimental projects to 
proceed, and where you are near an oilfield, there is, like up 
in Saskatchewan, the ability to try to find a revenue stream 
from pressurizing the oilfield. But not every coal plant is 
located geographically near an oilfield where that revenue 
stream is even a possibility.
    So I think we have the opportunity in this bill to at least 
create a window of a revenue stream to support that, and I hope 
we will continue to move forward with that bipartisan 
legislation.
    As long as we have you here, Mr. Eisenberg, could you tell 
me what the position is of the National Association of 
Manufacturers on climate change? I haven't been able to find 
anything on your Web site since the 2009 statement of the 80 
different hurdles that any legislation or program would have to 
pass before you could support it, which didn't even seem 
consistent with one another.
    Mr. Eisenberg. Absolutely.
    Senator Whitehouse. Is there a current position since 2009?
    Mr. Eisenberg. Absolutely.
    Senator Whitehouse. What is that?
    Mr. Eisenberg. And I will direct you to the part of the Web 
site that does state it. We believe that we should be acting on 
climate, period. Manufacturers are increasingly doing it, you 
know, across the board. Manufacturers are taking matters in 
their own hands because their investors are demanding it, their 
customers are demanding it, their employees are demanding it, 
and they are doing it. So we absolutely believe that we should 
be acting on climate change----
    Senator Whitehouse. And you opposed the Clean Power Plan, 
correct?
    Mr. Eisenberg. We did oppose the Clean Power Plan. We are 
asking the EPA to replace it with a better regulation. So we 
are comfortable with regulation----
    Senator Whitehouse. Is there an example that you have of a 
better regulation, or is that just kind of a hypothetical 
better regulation out there in space?
    Mr. Eisenberg. Sir, we are not the ones writing it, but 
yes, we are going to have some ideas on what that should look 
like. I think under 111----
    Senator Whitehouse. But you don't have a proposal?
    Mr. Eisenberg. So we have not put forward our proposal yet. 
In some of the Clean Power Plan comments we did actually submit 
plenty of suggestions on how they could sort of fix that 
proposal. Frankly, 150 pages of suggestions. Some of them were 
taken; some of them were not. But yes, there are things you 
could do within the confines of 111 that I think would probably 
hold up under law and would be effective in reducing emissions.
    Our concern on that, quite frankly, was not just the power 
sector, but the sort of follow on effect, since that is a 
precursor to rules on the industrial sector as well.
    Senator Whitehouse. I guess I would just close by saying I 
am glad that you are, as an organization, supporting taking 
action on climate change. I gather you wouldn't support that if 
you didn't concede that this is a real problem that America 
needs to address. And I gave remarks a little while ago on the 
Senate floor about some of our universities that seem to agree 
very strongly on this, and I pick out particularly, because 
their States are here represented today, the University of 
Wyoming and the University of West Virginia.
    The University of Wyoming Center for Environmental 
Hydrology and Geophysics says many of the most pressing issues 
facing the western United States hinge on the fate and 
transport of water and its response to diverse disturbances, 
including climate change. University of Wyoming scientists 
publish articles on the effects of projected climate change on 
forest fires, sustainability. The University of Wyoming awards 
grants to study the effects of climate change on pollinators, 
on water flow, on beaver habitat, on white bark pine growth. 
All of this work is going on, I think, in good faith in 
recognizing that climate change is very serious.
    In West Virginia, the Mountain Hydrology Laboratory tells 
us that climate change has important implications for 
management of freshwater resources; that the Highlands Region 
in the central Appalachian Mountains is expected to ``wet up''; 
that as warmer air, which carries more moisture, leads to what 
West Virginia University is calling the intensification of the 
water cycle, which is a nice way of saying storms and floods, 
that laboratory warns that the implications of this 
intensification are immense. And indeed, West Virginia 
University's climate scientist, Professor Hessel, was 
recognized by West Virginia University as West Virginia 
University's Benedum Distinguished Scholar. So not very likely 
that climate change is treated as a hoax in West Virginia when 
the West Virginia University Benedum Distinguished Scholar 
teaches climate science.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Carper. Mr. Chairman, I ask for unanimous consent, 
if I could make a unanimous consent request, to submit for the 
record testimony refuting concerns mentioned about New Source 
Review. These concerns have been voiced for decades. As Mr. 
Eisenberg stated, clean investments are being made. New Source 
Review makes sure the overall emissions do not increase so we 
don't clean up our pollutants by increasing emissions of 
another.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you for being here today.
    I am going to start with Mr. Coddington, but I am going to 
make a couple of comments. I am also a co-sponsor of the clean 
coal bipartisan effort to move forward with the technologies, 
bring value to that, and spur that along through a 45Q tax 
credit. We have great stakeholders in that participating, from 
environmentalists to coal companies, so I think it shows a path 
forward.
    I would also say, in conversation about electric cars, I am 
all in favor and very excited about the technologies that we 
see. But remember they have to be powered by electricity at 
some point, and they have to be plugged in, and what that says 
to me, as a coal State representative, is you need that good 
baseload energy resource to be able to power electric cars.
    So we can move toward emission free on the automobile side, 
but we have to keep moving forward on the coal side, because 
coal is going to be needed to power those electric cars. That 
is just simply going to be a fact, I think, of the future of 
our transportation system.
    As Senator Whitehouse mentioned, West Virginia University 
is doing great research in this area, but we also have Longview 
Power Plant, which is the highest efficiency, lowest emission 
plant in the country, and they are struggling. They are 
struggling because the economic model here in this country to 
deploy the cutting edge emission and dual fuel capacity and 
regulatory pressures has made it difficult for them.
    In the meantime, the President just returned from China. We 
see China building supercritical plants and moving forward not 
just with the buildout, but with the technology that it takes 
to build these kinds of plants. You can't build that in the 
United States right now in this environment, because of the 
expense and because of the difficulties and the headwinds that 
coal faces.
    So I would ask, Mr. Coddington, where do you see the future 
of supercritical coal plants in this country? Can we get there 
or is China going to continue to eat our lunch in this aspect?
    Mr. Coddington. Senator Capito, I do have great confidence 
in ultra-supercritical combustion technologies. I actually 
think if the regulatory environment is right, that you may see 
some of those plants start to come in the United States.
    In conjunction with our colleagues at West Virginia 
University and University of Kentucky, we actually are doing a 
lot of clean coal projects both in China and in the United 
States under the U.S.-China Clean Energy Research Center. So I 
am very optimistic about that technology. When you look at 
pathways forward for clean coal, certainly the more efficient 
combustion of it would have to rank among some of the most 
optimistic technologies that you could employ at scale. I think 
one of the main issues in the United States is competition 
between coal and gas, so there are economic considerations 
there that can't be overlooked. But I am quite optimistic about 
ultra-supercritical coal.
    Senator Capito. Well, you kind of threw a big if in there: 
if the regulatory environment is suitable. How would you 
describe it at this point in time right now? Are we suitable 
for the development of that; are we moving toward that, or are 
we moving away from it?
    Mr. Coddington. Senator Capito, again, I am not a 
particular expert in this field, but my impression is, under 
the Clean Power Plan and the Section 111(b) rules, that there 
was a preference toward carbon capture and storage, if you 
will, as opposed to maybe the deployment of ultra-supercritical 
technologies, and I say that as a carbon capture and storage 
fan. I was looking for incentives for carbon capture and 
storage in funding. But I would think in an appropriate policy 
and regulatory environment that there should not be a reason 
why those plants could not be encouraged to be built, as long 
as the economics otherwise penciled in light of the market 
prices for shale gas.
    Senator Capito. Thank you.
    Mr. Eisenberg, we have talked a lot about carbon and carbon 
emissions. We have had several hearings on ozone and the ozone 
related regulations, and some of the difficulties that some 
areas of our country are having to meet a standard before they 
have met the standard before.
    What are your manufacturers telling you about trying to 
meet the standards here? I would just like to hear your 
comments on that.
    Mr. Eisenberg. Thank you, and thank you for your leadership 
in trying to address this issue legislatively. We still need 
relief. We actually went out to our members and asked for 
input, heading into this year, on what their biggest regulatory 
concerns were, and ozone is still at the top. They are 
struggling with having to implement this regulation and comply 
with it. It gets to the margins of technologies that they 
frankly just don't know how to deploy.
    One of the charts I put in here, actually, a couple of the 
charts I put in my testimony are on NO<INF>x</INF> and VOCs, 
and you can see, on NO<INF>x</INF>, for instance, we are about 
15 to 25 percent of all the total NO<INF>x</INF> emissions that 
come from the manufacturing sector. Yet that regulation 
basically requires all of the relief to come from us. So you 
kind of get a sense of why we are so frustrated here. We have 
done a lot already. We are running out of things to do, and we 
are still feeling the pain of this regulation and could really 
use relief, and thank you for all the work on it.
    Senator Capito. Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Eisenberg, a common complaint I hear from industry in 
Arkansas about the previous Administration, really, I think, 
Administrations in general, is the gotcha attitude from Federal 
agencies. Instead of working hand in hand with the industry to 
develop regulations that help the environment and foster 
economic growth, many felt that they didn't have a place at the 
table. Then when regulations and unfunded mandates were 
released, industry were expected to hit thresholds that were 
impossible to reach. This usually ended with the Federal 
Government stifling economic growth, while providing few, if 
any, environmental benefits. Further, many regulations 
developed during the previous Administration were litigated, 
wasting the Federal Government's time and money.
    In your opinion, does an open and transparent dialogue with 
industry help the Federal Government develop sound regulations? 
More specifically, can this lead to smoother implementation?
    Mr. Eisenberg. So, thank you for that.
    Senator Boozman. Really important.
    Mr. Eisenberg. I strongly believe that there needs to be 
improved communication and trust between the business 
community, the regulated community, which is essentially 
manufacturing, and the Federal Government. And you can see it 
in the vehicle space that my colleague from the BlueGreen 
Alliance spent a lot of time talking about.
    For some reason, we are able to do it in the vehicle 
sector, where the agency got together with the equipment 
manufacturers, the tier 1 suppliers, and figured out a path 
forward that was aggressive, it worked, and everybody was able 
to kind of live with it and create jobs. You see it in the 
trucking space; you see it in the aviation space.
    We weren't able to do that on a lot of these sort of core 
environmental air pollution issues in the stationary source 
side, the power plant side, the manufacturing plant side. Our 
hope is that we can get there. There are some programs that EPA 
is putting in place. They resurrected something called the 
Smart Sectors Program where there are dedicated employees who 
are working with each individual sector of the manufacturing 
economy and trying to foster better communication, better 
trust, and I do think that is the way to get there.
    We all want the same thing here. We are all trying to keep 
those trend lines on emissions going straight down. And I think 
there is a way to do it right and a way to not do it right, and 
hopefully we are headed toward a better path.
    Senator Boozman. Ms. Lipman, do you want to comment?
    Ms. Lipman. I would actually second a lot of that in the 
sense that I do think the vehicle sector provides an example of 
the importance of engaging all stakeholders who have a key 
stake in the outcome of regulations, both in the regulated 
industry, as well as labor, environmental interests, community 
interests, et cetera. And I think there is tremendous potential 
to get to solutions that work for everyone.
    I think one thing that we have talked about here is the 
tremendous innovation happening. I do think we need to ensure 
that we have the leading standards and the sort of certainty 
and vision for companies to be able to make the investments to 
actually deploy some of these technologies, whether it is CCS 
or nuclear or advanced wind, you name it. I think in the 
electric sector we have seen a situation where all of those 
require a long term sense of where are we going in order for 
the investments to flow to deployment. So, whether we are 
looking at Paris or whether we are looking at economy-wide 
solutions, climate change, we need to retain a signal and a 
leadership, or we are not going to see these variety of 
technologies across. And we would agree that the span, the full 
range of energy and transportation technologies are solutions, 
but we need a shared commitment and clear regulatory pathway to 
get there.
    Senator Boozman. Thank you.
    Mr. Coddington, about 40 percent of Arkansas's electricity 
is sourced from coal. The State's legislature and the Arkansas 
Oil and Gas Commission have coordinated to set up a permitting 
process for enhanced oil recovery injection wells. The oil and 
natural gas production renaissance of the last 10 years has 
occurred on public and private lands, with the Federal 
Government slow to adapt to new technologies. It seems that 
States are leading on enhanced oil recovery as well.
    What can we, as Federal policymakers, do to help facilitate 
the deployment of carbon capture and enhanced oil recovery 
technologies?
    Mr. Coddington. Senator Boozman, thank you for your 
question. First, I would like to commend the Committee for its 
work on 45Q, which has bipartisan support. Certainly, anything 
that can be done to incentivize the capture of carbon dioxide 
and utilizing it in enhanced oil recovery, or injecting it for 
deep saline storage, is to be commended, and we are very 
thankful for that.
    If you look at the existing markets for CO<INF>2</INF>, the 
biggest one is enhanced oil recovery. Largely, that is a matter 
of State regulation. There are some issues with respect to the 
underground injection control code under the Safe Drinking 
Water Act regarding the regulatory status of carbon dioxide 
that is stored. So, for example, under current law, if I 
purchase carbon dioxide and inject it for enhanced oil 
recovery, and then it has to be stored, I am at risk of being 
tossed into a different regulatory program that could be 
problematic for me. So I would recommend perhaps taking a look 
at the underground injection control program and how that might 
work from the point of view of enhanced oil recovery. But 
largely, that is a matter of State regulation, and the State of 
Arkansas is to be commended for its work that it is doing in 
this area.
    Thank you.
    Senator Boozman. Thank you.
    Senator Barrasso. Thank you, Senator Boozman.
    Before turning to Senator Carper for a second round of 
questions, I ask unanimous consent to insert into the record a 
paper on New Source Review. This is a whitepaper explaining the 
barriers that New Source Review poses to fossil fuel-fired 
power plants that make efficiency improvements difficult. The 
paper was prepared by the Carbon Utilization Research Council.
    And also unanimous consent to----
    Senator Carper. I object. Not really.
    Senator Barrasso. Hearing no objections, ask unanimous 
consent to place into the record written testimony by Cloud 
Peak Energy in support of innovative policies to reduce 
emissions and provide regulatory certainty. Cloud Peak is 
headquartered in Wyoming; it is one of the largest U.S. coal 
producers.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        Senator Barrasso. Senator Carper.
    Senator Carper. I am counting the number of times you say 
Wyoming today. We have a little town just south of Dover called 
Camden Wyoming. I go there a lot. I go through it a lot. So I 
am not in Camden Wyoming as much as he is in Wyoming.
    Senator Barrasso. We can start with the Neil Young song, 
the Emperor of Wyoming.
    Senator Carper. There you go. We sure could.
    I want to go back to you for a question, Ms. Lipman. The 
Administration, this current Administration here in Washington 
signaled that it is interested in weakening heavy-duty and 
light-duty vehicle regulations, as you know. If we do that, 
what kind of effects is that likely to have on innovation and 
job creation?
    Ms. Lipman. My testimony and my written testimony is a 
little more detailed. We have told a very optimistic story 
about the tremendous progress and the recovery in the auto 
sector and in the supply chain that we have seen domestically 
as a result of strong, certain, long term standards. 
Unfortunately, the converse is also true. If we were to roll 
back standards, or if we were to even introduce great 
uncertainty as to the future of the standards, we put jobs at 
risk, we put innovation at risk, and particularly we put at 
risk those investments that companies are thinking about making 
in the near term.
    Our tier 1 suppliers--and I recently heard a supplier 
association talk to this--they operate worldwide, and they are 
looking at where will be the place that we are deploying this 
next generation of technology. Where should be put our R&D? 
Where should be put the manufacturing that goes with it? And if 
folks are not convinced that we are moving forward, we risk 
losing those investments.
    Senator Carper. Thanks.
    There has been an ongoing discussion around the targets for 
energy efficient vehicles and that we are on a glide path 
between 2025 to a very rigorous target, and then there is 
nothing more in terms of target beyond 2025. In conversation 
with the auto industry, environmental folks, others about 
providing some flexibility between 2025, but then targeting for 
more rigorous target effective in 2030. That gives the industry 
some flexibility near term, but it gives them the certainty of 
something long term to focus on.
    I was mentioning to the Chairman, I was present at the 
Detroit Auto Show 10 years ago when the Chevrolet Volt was 
launched. It got about 35 miles per charge. This year, when the 
Chevrolet Volt was launched, it gets 240 miles per charge. And 
it is only going to get better. Batteries only get better, and 
that is why we are seeing Ford and GM and a bunch of other 
companies here in this country and around the world saying we 
are going to do this, we are going to do this.
    How important is it to have certainty beyond 2025 in this 
regard?
    Ms. Lipman. At the risk of repeating myself and my 
testimony----
    Senator Carper. Just repeat yourself briefly.
    Ms. Lipman. Yes. Strong, long term certain standards are 
critical, and the more that industry can look out, can make 
those plans, again, not just the automakers, but the suppliers, 
the better. And I think to the extent that it is possible to 
extend that trajectory, the more we are likely to have people 
willing to make the deep commitments and long term commitments 
to the next generation of technology in America.
    Senator Carper. OK. Thank you.
    Ross, just a quick comment, please, on this.
    Mr. Eisenberg. So, we still have a mid-term review that we 
have to complete for the current set. This is an industry that 
has never really shied away from long term standards. I just 
hope that when we get there it is a data driven process and it 
gets to a place where everybody wins. We were able to see that 
the first round, and frankly, a little bit of the second round, 
so hopefully it all works out well in the end.
    Senator Carper. OK. Thank you.
    Mr. Eisenberg. An inclusive process is a good one.
    Senator Carper. Thanks very much.
    My last question for the panel is how do we make clean air 
a bipartisan issue again? I thought this was going to be a 
great hearing. It has been a good hearing. I have been excited 
about this hearing for weeks. But how do we make this a 
bipartisan issue again? What are some of the suggestions that 
you would give us that we can maybe work across the aisle to 
lift up communities that are being left behind, like my native 
State of West Virginia, while continuing our clean energy 
global leadership?
    Kipp, do you want to lead us off?
    Mr. Coddington. Yes. Thank you, Senator Carper. I actually 
view this as a bipartisan issue, and I am coming at it from the 
point of view of Federal support for research and development. 
And certainly sitting in the States outside of the Beltway, I 
think there is support for the advancement of these 
technologies and the ongoing critical role of the Federal 
Government. So call me politically naive, but I actually view 
these issues as bipartisan at the end of the day, and we are 
very thankful for the ongoing Federal support that we have 
received.
    Thank you.
    Senator Barrasso. If I could just follow up on that. Mr. 
Coddington, this will be my last question as well, because I 
was in the----
    Senator Carper. I was asking the whole panel.
    Senator Barrasso. Oh, I apologize.
    Senator Carper. Same question. How do we make clean air a 
bipartisan issue again? Any suggestions of how we can move in 
that direction?
    Mr. Eisenberg. So, I have been asking the same question. I 
testified before the Energy and Commerce Committee back in 
February and said, hey, it is time to really put our hands 
together and figure out how to modernize some of these 
policies, like you guys did with TSCA. I mean, this is begging 
for a similar approach. But to your point, there has to be a 
lot of work done to build trust and make it a bipartisan issue.
    Our hope is that maybe by building around some of these 
areas that get in the way of clean energy and efficiency gains 
we can start to build some of that trust up and some of those 
working relationships up. It is not, in our view, a good versus 
evil kind of thing; we are all driving toward the same end zone 
here. We just need to sort of get passed some of the past 
fights that we have had and work toward something positive.
    Senator Carper. All right, thanks.
    Zoe.
    Ms. Lipman. We are finally coming together at least on the 
panel.
    Senator Carper. Seems like kumbaya moment.
    Ms. Lipman. We also view this as a tremendous opportunity 
to achieve health and environmental gains that we know are 
supported by both sides of the public, if not both sides of the 
aisle. But also there is a tremendous opportunity to both 
engage all the stakeholders, as you mentioned, Ross. I think 
this is critical, and it can be done through a variety of 
processes. We do it at a State level, and ourselves, have seen 
tremendous opportunity. And the second is to continue to 
connect this to rebuilding manufacturing and good jobs in 
America. And there is tremendous opportunity to bring folks 
together around how does meeting our climate and energy goals 
help drive forward an agenda to rebuild America's economy, 
which I think we all share.
    Senator Carper. Thanks.
    Mr. Chairman, just a closing thought, if I could. This kind 
of conversation with you and me. I think Shelley put her finger 
on something, and she represents a State that has great 
dependence still on coal and also on natural gas. Certainly, 
Wyoming does. We are moving toward electric powered vehicles. 
If I had any question about that a year or two ago, I don't 
anymore. And with the announcements coming out of Ford and GM, 
it is clear that that is where we are headed here in this 
country, too.
    And her point--and it is a very good point--is how are we 
going to generate the electricity to fuel those vehicles. And 
the source of the generation of that electricity could be coal. 
It has to be really clean coal. I think we have the technology. 
We are moving in that direction. After long, long ramp-up, we 
are moving in that direction to actually be able to do that a 
lot better. Certainly, natural gas and renewables. But at the 
end of the day, how we generate electricity in a clean way and 
put those vehicles on the road using virtually no petroleum for 
a lot of those vehicles, that is going to do wonders for the 
quality of our air, and we just need to lead the charge. We 
have to be leading the charge in technology to get that done; 
not only on the clean coal side, but also in the generation of 
storage for batteries. If we do that, we will create just a 
truckload of jobs.
    Thank you all.
    Senator Barrasso. Thank you, Senator Carper.
    A final for Mr. Coddington. I am delighted I was in the 
State Senate in Wyoming, in the legislature, at the time that 
the School of Energy Resources was brought into play, and it is 
wonderful to see here we are, a decade or so later, with 
significant successes.
    I wanted to mention to you that the University of Wyoming 
is committed to research that seeks collaborative solutions to 
energy and environmental needs.
    My final question is could you just explain how the 
approach at the University of Wyoming School of Energy 
Resources adopts is unique and how other States might be able 
to benefit from a similar collaborative approach?
    Mr. Coddington. Absolutely. Thank you, Mr. Chairman. So, 
the School of Energy Resources is separately funded by the 
University of Wyoming legislature, and it has this bridge 
building applied energy, applied research role, and the goal of 
it is to ensure that academic research, in this instance that 
has an energy focus, actually has a perceived outcome that is 
going to benefit all relevant stakeholders and taxpayers in the 
State of Wyoming.
    So we do work collaboratively with colleagues on campus. We 
work a lot with industry partners. We have a close working 
relationship with the Wyoming legislature. So we are supporting 
academic research, but we always have in the back of our mind 
what is the potential return for the taxpayer and those who are 
funding universities such as ours. So I think it has been a 
successful model, and it is a privilege to be there, and thank 
you for your support of it, Mr. Chairman.
    Senator Barrasso. Well, thank you very much.
    Thank you to all three of our witnesses. I thought they did 
a wonderful job in discussing this topic.
    Senator Carper. He always says that.
    [Laughter.]
    Senator Carper. No, he doesn't. I always say that.
    Senator Barrasso. He always says that.
    I would remind the members that other members of the 
Committee may be submitting written questions for the record, 
so the hearing will remain open for 2 weeks. I want to thank 
you again for being here, for your testimony on this important 
issue.
    The hearing is adjourned.
    [Whereupon, at 11:16 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

   
    
    
      
                                 <all>
</pre></body></html>
